APPENDIX A

JUDGMENT FROM EIGHT CIRCUIT

20-1964

Mr. Ricardo Watkins
#17709-424
FEDERAL CORRECTIONAL INSTITUTION
P.O. Box 3000
Anthony, NM 88021-0000

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1964

United States of America
Appellee
v.
Ricardo Watkins, also known as Mac
Appellant

Appeal from U.S. District Court for the Northern District of Iowa - Cedar Rapids
(1:99-cr-00073-LRR-2)
MANDATE
In accordance with the judgment of 05/21/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
July 14, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

APPENDIX B

JUDGMENT & COMMITMTRT FROM DISTRICT COURT

\
A0 245B

(Rev, 12/03) Judemeut in a Criminal Case
Sheet I

United States District Court
NORTHERN DISTRICT OF IOWA
UNITED STATES OF AMERICA
V.

JUDGMENT IN A CRIMINAL CASE

RICARDO WATKINS, a/k/ “Mac”

Case Number:

CR 99-73-2-LRR

USM Number:

17709-424

Wallace L. Taylor, Attorney at Law
Defendants Altorney

THE DEFENDANT:
□

pleaded guilty to count(s) _______________________________________________________

□

pleaded nolo contendere to count(s)
which was accepted by the court.
was found guilty on count(s)
after a plea of not guilty.

1 .& 3 of the five-count 10/26/1999 Superseding Indictment.

The defendant is adjudicated guilty of these offenses:
Title & Section
21 U.S.C.§§ 841(a)(1),
841(b)(1)(A), & 846
21 U.S.C. §§ 841(a)(1) &
841(b)(1)(C)

Nature of Offense
Conspiracy to Distribute and Possession with Intent
to Distribute 50 Grams or More of Cocaine Base
Distribution of .41 Grams of Cocaine Base

The defendant is sentenced as provided in pages 2 through
to the Sentencing Reform Act of 1984.
□

The defendant has been found not guilty on count(s)

□

Count(s)

□ is

6

□ are

Offense Ended
1999
03/18/1998

Count
1
3

of this judgment. The sentence is imposed pursuant

dismissed on the motion of the United States.

IT IS ORDERED that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restitution, the defendant must notify the court and United States attorney of material change in economic circumstances.
July 28, 2006
Date.

The above la a true

iposition of Judgment

w

Signature ®f Judicial Officer

Linda R. Reade
U.S. District Court Judge
Name and Title of Judicial Officer

Date

\.

\
s

3> l i

/ /1-

AO 245B

(Rev. 12/03) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

DEFENDANT:
CASE NUMBER:

2

of

6

RICARDO WATKINS, a/kJ “Mac”
CR 99-73-2-LRR

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total
term of: life. This term of imprisonment consists of a life term imposed on Count 1 and a term of 240 months imposed on Count 3,
with these terms of imprisonment to run concurrently with each other.

■

The court makes the following recommendations to the Bureau of Prisons:
That the defendant participate in the Bureau of Prisons’ 500-Hour Comprehensive Residential Drug Abuse Treatment Program.'
That the defendant be designated to a Bureau of Prisons facility as close to his family in Arizona as possible, commensurate with
his security and eustody classification needs.

■

The defendant is remanded to the custody of the United States Marshal.

□

The defendant shall surrender to the United States Marshal for this district:

□

□

at

□

as notified by the United States Marshal.

□ a.m.

□ p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□

before 2 p.m. on

________________ __________ .

□

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

AO 2-15B

(Rev. 12/03) Judgment tit a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

DEFENDANT:
CASE NUMBER:

3

of

6

RICARDO WATKINS, a/k/ “Mac"
CR 99-73-2-LRR

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: 5 years. This term of supervised release
consists of a five-year term imposed on Count 1 and a three-year term imposed on Count 3, with these terms of supervised release
to run concurrently with each other.

The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
□

The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)

■

The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, if applicable.)

■

The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)

□

The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
student, as directed by the probation officer. (Check, if applicable.)

O

The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with the
Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days
of each month;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;

6)

the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted
of a felony, unless granted permission to do so by the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;

12)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcementagency without the
permission of the court; and

13)

as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record er personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

AO 2J5B

(Rev. 12/03) Judgment in a Criminal Case
Sheet 3C — Supervised Release
Judgment—Page

DEFENDANT:
CASE NUMBER:

4

of

6

RICARDO WATKINS, a/k/ “Mac”
CR 99-73-2-LRR

SPECIAL CONDITIONS OF SUPERVISION
1) The defendant shall participate in a program of testing and treatment for substance abuse, as directed by
the probation officer, until such time as he is released from the program by the probation officer.
2) The defendant is prohibited from the use of alcohol and is prohibited from frequenting bars, taverns, or
other establishments whose primary source of income is derived from the sale of alcohol.
3) The defendant shall submit his person, residence, adjacent structures, office or vehicle to a search,
conducted by a United States Probation Officer at a reasonable time and in a reasonable manner, based upon
reasonable suspicion of contraband or evidence of a violation of a condition of release; failure to submit
to a search may be grounds for revocation; the defendant shall warn any other residents that the residence
or vehicle may be subject to searches pursuant to this condition. This condition may be invoked with or
without the assistance of law enforcement.

■(.

A0 2J5B

(Rev. 12/03) Judgment in a Criminal Case
Sheet 6 — Criminal Monetary Penalties
Judgment — Page

DEFENDANT:
CASE NUMBER:

6

of

6

RICARDO WATKINS, a/k/ “Mac”
CR 99-73-2-LRR

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties are due as follows:
A

■

Lump sum payment of S
□ not later than
□ in accordance with

200

due immediately, balance due

, or
□ C, □ D, □ E, or □ F below; or

□ C,

B

□

Payment to begin immediately (may be combined with

C

□

Payment in equal
(e.g., weekly, monthly, quarterly) installments ofS
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

D

□

Payment in equal
(e.g., weekly, monthly, quarterly) installments of S
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

□

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□

Special instructions regarding the payment of criminal monetary penalties:

□ D, or

□ F below); or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
Responsibility Program, are made to ^e^clerk of the court.
^ ^
^
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall^be^applied in the following order: (1 ^assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,

r

APPENDIX C

DENIAL FROM WARDEN BERGAMI

INMATE RELEASE PLANNING STATEMENT AND PROGRAM STATEMENT
5321.08/ 7.
INMATE NAME: RICARDO WATKINS # 17709-424
To my understanding the camp in Atlanta offers a CDL class
where I can get my CDL and much needed experience. With the
time left I can gain years of experience at the Atlanta camp,
helping me to be a safe driver on the road.
Upon release I'm going to take class that gives/offers job
placement for Load training. The class is 5 to 7 days long and
cost $2,500. Once done,the class, 11will.work for Freight
loading broker for on the job experience from 1 to 3 months.
While working for the broker I will be working 10 to 16 hours
a day and X twill have a second job to help save the money I will
need to buy my first truck.
Once I leave the broker I will gain employment at a trucking
company. With the experience that I can gain at Atlanta camp
driving trucks. I can
start at a better wage then someone with
no experience, will prove invaluable to me. Starting wage is
$.53 per mile with experience and $.38 without.
I will need to s-*va at least $9,000 to $10,000 to be able to
buy my first truck that will cost $5,000 down and the rest going
towards payments. The monthly payments will be in the range of
$250 to $500 per month.
To start my own Limited Liability Company (LLC), Company Name,
Tax Identifier to file and receive my own Authority/Icc/MC
Authority will cost me about $495.00.
I will need $1,000,000 of insurance for the tractor and trailer.
The prices will range from how long a driver has had their CDL
license. The longer I have had my CDL the cheaper the insurance.
The cheaper things are for me the better chances for success.
With the relationship that I will have with the broker
. experience from loading trucks I will insure myself that
busy and making money. I will need phone/fax machine and
(All in One), laptop computer, file cabinet or file box,

and
I stay
copier
copy paper.

I will need a bank account, to receive money and accounting records
at the same time. Once I have saved enough money I will buy myself
a house that will serve as a home/office.
The Atlanta camp also offers UNICOR, and I have 10 years of experience
After some time has passed I will hire drivers and buy other trucks
that will provide jobs to others, and in doing so I will help others
take care of their families which helps communities become stronger. '

